                     AUDIT REPORT

                     Audit of NRC’s Occupant Emergency
                                  Program

                      OIG-09-A-07     February 11, 2009




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                                  February 11, 2009


MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S OCCUPANT EMERGENCY PROGRAM
                            (OIG-09-A-07)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
Occupant Emergency Program.

The report presents the results of the subject audit. Agency management comments
provided after the January 26, 2009, exit conference have been incorporated into this
report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG follow up as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Beth Serepca, Team Leader, Security and Information Management Audit
Team, at 415-5911.

Attachment: As stated
Electronic Distribution

Edward M. Hackett, Executive Director, Advisory Committee on Reactor
 Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jim E. Dyer, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
R. William Borchardt, Executive Director for Operations
Bruce S. Mallett, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Waste, Research,
 State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director for Corporate Management
 and Chief Information Officer, OEDO
Vonna L. Ordaz, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Cynthia A. Carpenter, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
  and Environmental Management Programs
Guy P. Caputo, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Michael F. Weber, Director, Office of Nuclear Material Safety and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
Luis A. Reyes, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
                                               Audit of NRC’s Occupant Emergency Program



EXECUTIVE SUMMARY

       BACKGROUND

       An Occupant Emergency Program (OEP) is defined as, “…a short-term
       emergency response program [that] establishes procedures for
       safeguarding lives and property during emergencies....” Effective OEPs
       include an overview of the roles and responsibilities of involved parties,
       address a wide range of hazards and threats, involve coordination with
       local emergency responders, and consider safety codes and regulations.

       An occupant emergency plan is a fundamental part of an OEP. An
       occupant emergency plan contains a set of procedures to protect life and
       property in a specific Federally occupied space under defined emergency
       conditions. Federal Management Regulations require every facility owned
       or leased by the Federal Government to have an occupant emergency
       plan. These regulations contain detailed information on how an occupant
       emergency plan should be developed and implemented.

       In accordance with the regulations, the Nuclear Regulatory Commission
       (NRC) issued Management Directive 10.130, Safety and Health Program
       Under the Occupational Safety and Health Act. This directive provides
       criteria for developing and implementing individualized occupant
       emergency plans for each of the NRC-owned or leased buildings.
       Responsibility for the development, implementation, and maintenance of
       NRC’s OEP is shared between the Office of Administration and Office of
       Human Resources. Together, both offices have an overall responsibility
       for familiarizing agency staff with the agency OEP so that proper
       procedures are followed during an emergency, thereby minimizing risk to
       NRC staff and property.

       PURPOSE

       The audit objective was to evaluate the extent to which the agency’s
       Occupant Emergency Program complies with Federal regulations and
       standards.




                                     i
                                        Audit of NRC’s Occupant Emergency Program



RESULTS IN BRIEF

Although NRC’s Occupant Emergency Program meets Federal
requirements and standards, weaknesses pertaining to the
implementation of the agency’s Occupant Emergency Program were
identified. Specifically,

•   Staff lack awareness of emergency procedures.

•   Emergency equipment is inadequate and poorly maintained.

•   Signage in the White Flint complex is inadequate and inconsistent.

Staff Lack Awareness of Emergency Procedures

NRC has not adequately prepared its employees for emergencies, thereby
potentially endangering staff safety and well-being. A recent Office of the
Inspector General survey found that many NRC staff were unaware of
what to do in an emergency. For example, approximately one-third of
employees surveyed had not read their building’s occupant emergency
plan and did not know the location of their designated assembly area or
who to report to upon arrival at the designated spot. In addition, more
than one-third of surveyed employees who have assigned duties during an
emergency (e.g., floor monitors, stairwell monitors) had not been trained
on those duties. Staff are unfamiliar with procedures and untrained on
duties because NRC has not provided staff with training on emergency
procedures or conducted full-scale, annual evacuation drills. As a result,
NRC staff and other building occupants may not know how to respond
appropriately during an emergency, thereby putting their safety and that of
their colleagues at risk.

Emergency Equipment Is Inadequate and Poorly Maintained

Federal agencies have published guidelines governing the placement and
maintenance of lifesaving equipment such as Automatic External
Defibrillators (AEDs) and Personal Emergency Kits (PEKs) for staff use
during an emergency. NRC’s AED program is inadequate, and agency
PEKs are inconsistently provided and maintained. Some of the agency’s
AEDs and PEKs may not be adequate because the agency does not
require that such equipment be routinely maintained. Without conducting
routine maintenance or consistently issuing emergency equipment, NRC
lacks assurance that lifesaving emergency equipment will be available and
ready to use when needed.




                              ii
                                         Audit of NRC’s Occupant Emergency Program



Signage in the White Flint Complex Is Inadequate and Inconsistent

While the agency has posted signage denoting exit routes, some of the
signage does not meet Federal guidelines and industry standards.
Specifically, current signage, including evacuation maps and stairwell
routing in the White Flint complex, is inadequate and inconsistently
designed and posted. These deficiencies exist because management was
unfamiliar with applicable guidance and standards. Without upgrading
existing signage to meet Federal guidance and industry standards, NRC
staff in the White Flint complex may be unable to evacuate the complex
safely and expediently during an emergency.

RECOMMENDATIONS

This report makes recommendations to improve the agency’s
implementation of its Occupant Emergency Program. A consolidated list
of these recommendations appears in Section IV of this report.

AGENCY COMMENTS

At the exit conference on January 26, 2009, agency management stated
their agreement with the findings and recommendations in this report.
However, management also wanted to provide written comments to
provide further insight into the actions the agency is taking to improve the
Occupant Emergency Program. Specifically, management wished to
include agency actions that resulted from a lessons learned report
pertaining to a June 25, 2008, medical event. The agency’s comments
are provided in Appendix B of this report.




                              iii
                          Audit of NRC’s Occupant Emergency Program




[Page intentionally left blank.]




               iv
                                       Audit of NRC’s Occupant Emergency Program



ABBREVIATIONS AND ACRONYMS

       AED         Automatic External Defibrillator

       NRC         Nuclear Regulatory Commission

       OEP         Occupant Emergency Program

       OIG         Office of the Inspector General

       PEK         Personal Emergency Kit




                            v
                          Audit of NRC’s Occupant Emergency Program




[Page intentionally left blank.]




               vi
                                                                Audit of NRC’s Occupant Emergency Program



TABLE OF CONTENTS

        EXECUTIVE SUMMARY ............................................................. i

        ABBREVIATIONS AND ACRONYMS......................................... v

        I. BACKGROUND..................................................................... 1

        II. PURPOSE............................................................................. 2

        III. FINDINGS ............................................................................ 3

            A.     STAFF LACK AWARENESS OF EMERGENCY
                   PROCEDURES .................................................................. 3

            B.     EMERGENCY EQUIPMENT INADEQUATE AND POORLY
                   MAINTAINED .................................................................... 8

            C.     SIGNAGE IN WHITE FLINT COMPLEX INADEQUATE AND
                   INCONSISTENT ............................................................... 13


        IV. CONSOLIDATED LIST OF RECOMMENDATIONS............ 17

        V. AGENCY COMMENTS ....................................................... 18


        APPENDICES

        A. SCOPE AND METHODOLOGY .......................................... 20

        B. AGENCY COMMENTS ....................................................... 22




                                                 vii
                          Audit of NRC’s Occupant Emergency Program




[Page intentionally left blank.]




              viii
                                                                                Audit of NRC’s Occupant Emergency Program



I.     BACKGROUND

                    An Occupant Emergency Program (OEP) is defined as, “…a short-term
                    emergency response program [that] establishes procedures for
                    safeguarding lives and property during emergencies....” Effective OEPs
                    include an overview of the roles and responsibilities of involved parties,
                    address a wide range of hazards and threats, involve coordination with
                    local emergency responders, and consider safety codes and regulations.

                    Federal Management Regulations require every facility owned or leased
                    by the Federal Government to have an occupant emergency plan. In
                    accordance with the regulations, the Nuclear Regulatory Commission
                    (NRC) issued Management Directive 10.130, Safety and Health Program
                    Under the Occupational Safety and Health Act. This directive provides
                    criteria for developing and implementing occupant emergency plans for
                    NRC-owned or leased buildings.1 An occupant emergency plan is a
                    fundamental part of an OEP. An occupant emergency plan contains a set
                    of procedures to protect life and property in a specific Federally occupied
                    space under defined emergency conditions.

                    Responsibility for the development, implementation, and maintenance of
                    NRC’s OEP is shared between the Office of Administration and Office of
                    Human Resources. Specifically, the Office of Administration has
                    responsibility for the following OEP-related activities: (1) developing and
                    implementing the agency’s occupant emergency plan and assisting the
                    regional offices in developing their own occupant emergency plans; (2)
                    providing emergency preparedness training to headquarters staff,
                    including the scheduling and execution of fire drills; (3) ensuring that
                    necessary resources are available to respond to emergencies in
                    accordance with the occupant emergency plans; and (4) coordinating and
                    obtaining approval for significant changes to the agency’s occupant
                    emergency plan. The Office of Human Resources has responsibility for
                    assigning its personnel to perform staff accountability functions2 during
                    emergencies requiring evacuation of the headquarters buildings.
                    Together, both offices have an overall responsibility for familiarizing
                    agency staff with the agency OEP so that proper procedures are followed
                    during an emergency, thereby minimizing risk to NRC staff or property.




1
 Management Directive 10.130 refers to occupant emergency plans as emergency protection plans.
2
 “Accountability functions” refers to accountability activities performed by designated personnel from the Office of Human
Resources who have responsibility for accounting for each employee from their assigned office during a full-evacuation drill.




                                                                  1
                                                                          Audit of NRC’s Occupant Emergency Program



                      NRC headquarters includes six buildings located throughout Rockville and
                      the Bethesda areas of Maryland, including the One and Two White Flint
                      high-rises (White Flint complex) as well as the Church Street, Twinbrook,
                      Executive Boulevard, and Gateway office buildings. Most headquarters
                      staff work in the White Flint complex.3 Each building has its own unique
                      occupant emergency plan with details specific to its location and facility.


II.       PURPOSE

                      The audit objective was to evaluate the extent to which the agency’s
                      Occupant Emergency Program complies with Federal regulations and
                      standards. Appendix A contains information on the audit scope and
                      methodology.




3
    Approximately 2,800 staff are stationed at the White Flint complex.




                                                                    2
                                                   Audit of NRC’s Occupant Emergency Program



III. FINDINGS

          By having an Occupant Emergency Program and also an occupant
          emergency plan for every building, NRC generally complies with Federal
          regulations. However, the Office of the Inspector General (OIG) identified
          opportunities for improvement. Specifically:

          A.     Staff lack awareness of emergency procedures.
          B.     Emergency equipment is inadequate and poorly maintained.
          C.     Signage in White Flint complex is inadequate and inconsistent.

          Addressing these issues will strengthen the agency’s OEP.

    A.   Staff Lack Awareness of Emergency Procedures

          NRC has not adequately prepared its employees for emergencies, thereby
          potentially endangering staff safety and well-being. A recent OIG survey
          found that many NRC staff were unaware of what to do in an emergency.
          For example, approximately one-third of employees surveyed had not
          read their building’s occupant emergency plan and did not know the
          location of their designated assembly area or who to report to upon arrival
          at the designated spot. In addition, more than one-third of surveyed
          employees who have assigned duties during an emergency (e.g., floor
          monitors, stairwell monitors) had not been trained on those duties. Staff
          are unfamiliar with procedures and untrained on duties because NRC has
          not provided staff with training on emergency procedures or conducted
          full-scale, annual evacuation drills. As a result, NRC staff and other
          building occupants may not know how to respond appropriately during an
          emergency, thereby putting their safety and that of their colleagues at risk.

                 Agency Occupant Emergency Plans

          NRC headquarters occupant emergency plans state that agency
          management has responsibility for ensuring that building occupants are
          provided with and aware of their building’s occupant emergency plan. The
          plans state that training will be provided to all staff on their building’s
          emergency procedures, including specific training for those staff with
          assigned duties during an emergency, and that such training is imperative
          to ensure the maximum effectiveness of the occupant emergency plans.

          Recent tragedies, such as the September 11, 2001, terrorist attacks,
          underscore the importance of training staff in emergency procedures. A
          National Institute of Standards and Technology report examining staff
          emergency response during the collapse of the World Trade Center noted




                                        3
                                                                                Audit of NRC’s Occupant Emergency Program



                    that an effective means for training staff on emergency procedures is to
                    conduct regular, full-scale evacuation drills. According to the report, such
                    drills helped a significant number of personnel stationed in World Trade
                    Center Tower Two survive the collapse of the building.4

                              Staff Awareness of Emergency Procedures Lacking

                    OIG conducted a survey of 159 headquarters employees assigned to the
                    six headquarters locations. The survey results, listed below, revealed that
                    staff were unaware of emergency response procedures as described in
                    the headquarters occupant emergency plans.

                    •    34 percent had not read the occupant emergency plan for their facility.

                    •    66 percent did not know the NRC emergency number.

                    •    30 percent did not know the location of their designated assembly
                         area.

                    •    28 percent did not know who to report to upon reaching the designated
                         assembly area.

                    •    72 percent were not instructed on accountability procedures if there is
                         an emergency at work and they are out of the office.




4
  Morgan Stanley Dean Witter, an investment firm, occupied 22 floors of Tower Two in the World Trade Center. As a result of the
1993 terrorist attack on the World Trade Center, Morgan Stanley’s head of security organized frequent, surprise evacuation drills
that required all personnel to immediately leave their desks and proceed two by two down the stairwells to a pre-designated floor.
Each drill, which pulled the firm’s brokers off their phones and away from their computers, cost the company money. However,
when the tower collapsed on September 11, 2001, only 13 Morgan Stanley employees were trapped, while 2,687 employees were
able to evacuate safely.




                                                                 4
                                                                                   Audit of NRC’s Occupant Emergency Program




                                              Headquarters Occupant
                                              Emergency Plan Survey

                                      80
             159 employees surveyed
               Percentage based on




                                      70
                                      60
                                      50
                                      40
                                      30
                                      20
                                      10
                                       0
                                              Have not       Do not    Do not       Do not     Do not
                                              read plan    know NRC     know      know who know out-
                                                           emergency location of to report to of-office
                                                            number    assembly        at     emergency
                                                                        area      assembly procedures
                                                                                     area

       Figure 1 - Results of survey regarding staff awareness of headquarters occupant emergency
       plans

                                      Additionally, 24 out of the 159 employees interviewed were assigned
                                      responsibilities during an emergency. Of those, 42 percent (10
                                      employees) indicated they had not been trained on their emergency
                                      duties. Although the agency routinely conducts fire drills as required by
                                      Federal regulations, these exercises are limited in scope and do not
                                      involve several key features of a full-scale evacuation such as mustering5
                                      and accountability assessments.6

                                             Lack of Management Emphasis

                                      Staff are unfamiliar with emergency procedures because the agency has
                                      not mandated that regular training be provided to staff or that annual full-
                                      scale evacuation drills are conducted at all headquarters buildings.




5
    Mustering refers to the assembly of employees in a pre-designated space.
6
    The term “accountability assessment” refers to the act of physically accounting for all employees during a full-scale evacuation.




                                                                     5
                                                                                  Audit of NRC’s Occupant Emergency Program



                               Training

                    NRC’s headquarters occupant emergency plans state that regular training
                    is necessary to ensure the maximum effectiveness of the occupant
                    emergency plans during an emergency. However, staff, including those
                    with assigned responsibilities during an emergency, have not received
                    periodic training on emergency procedures because there is no agency
                    policy requiring that such training occur. Rather, it is left up to staff to
                    familiarize themselves with emergency procedures, and any revisions
                    thereof, noted in their building’s occupant emergency plan.

                               Full-Scale Evacuation Drills

                    Although the agency conducts regular fire drills,7 agency policy does not
                    require annual full-scale evacuation drills, which include complete building
                    evacuation, mustering, and staff accountability assessments. For
                    example, the last full-scale evacuation drill was held in October 2004 –
                    more than 4 years ago. Since the previous full-scale evacuation drill there
                    have been several office moves, space reconfigurations, and 1,5888 new
                    employees hired. This has resulted in a large percentage of staff being
                    unfamiliar with emergency procedures.

                               Safety of Agency Staff at Greater Risk

                    Because the agency has not formalized a policy requiring that regular
                    training be provided to staff and full-scale evacuation drills be held
                    annually, staff may not know how to respond appropriately during an
                    emergency. Regular training and practical experience as provided by a
                    full-scale evacuation drill could help reduce the fear, panic, and mass
                    confusion that could arise during an actual emergency evacuation.
                    Without regular training and annual full-scale evacuation drills, the safety
                    and well being of agency staff are put at greater risk.

                    Recommendations

                    OIG recommends that the Executive Director for Operations:

                    1. Require annual training for those with responsibilities, such as floor
                       and stair monitors, during an emergency.




7
  “Regular fire drills” refers to those exercises in which an alarm is sounded and evacuation is limited to a three-floor area. These
drills often involve relocating to another floor and not evacuating the building.
8
  This figure was provided by the Office of Human Resources.




                                                                   6
                                       Audit of NRC’s Occupant Emergency Program



2. Require annual, unannounced, full-scale evacuation drills, including
   mustering and accountability assessments, at all headquarters and
   regional complexes.

3. Provide employees with periodic guidance reinforcing key points of the
   agency’s occupant emergency plans and emergency procedures.




                              7
                                                 Audit of NRC’s Occupant Emergency Program



B.   Emergency Equipment Inadequate and Poorly Maintained

      Federal agencies have published guidelines governing the placement and
      maintenance of lifesaving equipment such as Automatic External
      Defibrillators (AEDs) and Personal Emergency Kits (PEKs) for staff use
      during an emergency. NRC’s AED program is inadequate, and agency
      PEKs are inconsistently provided and maintained. Some of the agency’s
      AEDs and PEKs may not be adequate because the agency does not
      require that such equipment be routinely maintained. Without conducting
      routine maintenance or consistently issuing emergency equipment, NRC
      lacks assurance that lifesaving emergency equipment will be available and
      ready to use when needed.

             Federal Guidance

      In response to recent terrorist acts and catastrophic natural disasters, the
      Government has published guidelines pertaining to the placement and
      maintenance of lifesaving equipment and supplies in Federal buildings.
      Guidelines pertain to the placement and maintenance of AED devices in
      Federal buildings and recommend that Federal employees are supplied
      with PEKs.

             Automatic External Defibrillators

      The Department of Health and Human Services issued the Federal
      Occupational Health Public Access Defibrillation Guidelines, which
      address the placement and maintenance of AEDs in Federal buildings.
      The Guidelines state that AEDs should be (1) routinely maintained and
      checked for operability, (2) placed near a telephone, and (3) referenced in
      the agency occupant emergency plan. Additionally, the agency issued
      Management Directive 10.122, Employee Assistance and Wellness
      Services Program, which states that the names of AED-trained employees
      located at the respective site should be posted near the AEDs. Lastly,
      industry best practice states that AEDs should be placed in areas where
      people may regularly gather.

             Personal Emergency Kits

      The Federal Protective Service issued the Secure Facilities, Safe
      Occupants document which provides instructions on developing an
      effective PEK program. The guidance lists items that should be included
      in the kits and recommends how the kits should be maintained. For




                                     8
                                                                   Audit of NRC’s Occupant Emergency Program



         example, the guidance recommends that these kits contain a mask, water,
         a flashlight and batteries, and a first aid kit. Additionally, the guidance
         stresses the importance of maintaining the kits so they are ready to use
         when needed.

                   OIG Inspection

                   Automatic External Defibrillators Program Weaknesses

         Auditors inspected 40 AEDs located in the White Flint complex and
         Twinbrook, Executive Boulevard, and Gateway office buildings in addition
         to interviewing staff involved in the placement and maintenance of agency
         AEDs. Auditor’s found that the AEDs are not routinely maintained or
         checked for operability. Further, AEDs are not always placed in locations
         where people gather, e.g., the auditorium or parking garage levels. The
         inspection results, listed below, revealed that there are opportunities for
         improving agency management of AEDs. Figure 2 shows the inspection
         results.

         •    100 percent of AEDs do not have a telephone in the immediate vicinity.

         •    100 percent of AEDs do not have a contact list posted nearby.

         •    7.5 percent of AED cabinets have stickers indicating that the alarm
              batteries are not operational.9

         Auditors also found that AEDs are not specifically referenced in the
         headquarters occupant emergency plans.




9
  AED cabinets are equipped to sound an alarm when the cabinet is opened. Without batteries, however, the alarm will
not sound.




                                                     9
                                                                                Audit of NRC’s Occupant Emergency Program




                                                  AED Inspection

                                       50
                     Number of AEDs
                      Inspected (40)
                                       40
                                       30
                                       20
                                       10
                                       0
                                            No telephone No contact list                     No batteries
                                               nearby

                      Figure 2 – Results of AED inspection

                      Auditors also found during the AED inspection that two of the devices
                      were marked as out-of-order for several weeks and no instructions were
                      provided to locate alternative devices.10




                      Out-of-order defibrillator on P2 parking level of One White Flint



10
     The AEDs, located on P2 and P3 of One White Flint building, have since been repaired.




                                                                 10
                                                                                   Audit of NRC’s Occupant Emergency Program



                                                Personal Emergency Kit Weaknesses

                                       Auditors inspected 139 NRC-supplied PEKs, and interviewed their
                                       respective owners to determine their familiarity with kit contents. Auditors
                                       identified two weaknesses related to the issuance and maintenance of the
                                       kits. Specifically, the PEKs are distributed inconsistently and some of the
                                       kit contents are outdated and possibly inadequate.

                                       The agency has not been consistent in issuing the kits to headquarters
                                       staff and has not actively maintained the kits by refreshing perishable
                                       items. OIG inspection results, listed below, revealed that there are
                                       opportunities for improving agency management of PEKs.

                                       •   86 percent contained expired water.

                                       •   75 percent did not contain a first aid emergency kit.

                                       •   88 percent contained flashlights with batteries that had never been
                                           replaced.
                                                       Headquarters PEK Inspection

                                 100

                                  90

                                  80
Percentage (based on 139 PEKs)




                                  70

                                  60

                                  50

                                  40

                                  30

                                  20

                                  10

                                   0
                                       No PEK            Expired Water        No First Aid Kit        No Battery
                                                                                                     Replacement

                                       Figure 3-PEK inspection results




                                                                         11
                                                                                 Audit of NRC’s Occupant Emergency Program



                      During interviews with staff, OIG found that PEKs are not regularly
                      provided to consultants or contractors. In fact, auditors noted that 17
                      percent of staff interviewed did not have a PEK.11

                                Lack of Policies and Procedures

                      The agency AED and PEK programs are inadequate because agency
                      management has not adequately maintained emergency equipment or
                      taken into consideration industry best practices for emergency equipment.

                                Staff Unprepared for Emergency

                      Because the agency’s basic lifesaving equipment and emergency supplies
                      are not adequately maintained or consistently issued, employees may be
                      at risk during an emergency.

                      Recommendations

                      OIG recommends that the Executive Director for Operations:

                      4. Develop procedures for ensuring that AEDs are routinely maintained
                         and checked for operability.

                      5. Post contact information and, where necessary, a telephone in the
                         immediate vicinity of all AED devices.

                      6. Publicize the location of each AED (e.g., on the internal Web site or in
                         the agency’s occupant emergency plan).

                      7. Include information on the AED program in the agency’s occupant
                         emergency plan.

                      8. Develop procedures for consistently issuing PEKs.

                      9. Develop procedures for properly maintaining PEKs.




11
     17 percent is based on our initial survey of 168 employees of which 29 did not have a PEK.




                                                                  12
                                               Audit of NRC’s Occupant Emergency Program



C   Signage in White Flint Complex Inadequate and Inconsistent

     While the agency has posted signage denoting exit routes, some of the
     signage does not meet Federal guidelines and industry standards.
     Specifically, current signage, including evacuation maps and stairwell
     routing in the White Flint complex, is inadequate and inconsistently
     designed and posted. These deficiencies exist because management was
     unfamiliar with applicable guidance and standards. Without upgrading
     existing signage to meet Federal guidance and industry standards, NRC
     staff in the White Flint complex may be unable to evacuate the complex
     safely and expediently during an emergency.

            Federal Regulations and Best Practice

     The Code of Federal Regulations states that if the route to an exit “is not
     immediately apparent, signs must be posted along the exit access
     indicating the direction of travel to the nearest exit….” It further states,
     “the line-of-sight to an exit sign must be clearly visible at all times.” These
     general requirements are supplemented by best practices for the design
     and deployment of floor maps and other visual aids, such as photo
     luminescent signage. For example, best practices suggested by floor map
     manufacturers state that evacuation maps should be photo luminescent
     (i.e., “glow-in-the-dark); be strategically placed; and include specific
     features such as primary and alternate evacuation routes, the location of
     emergency equipment (i.e., AEDs, first aid kits, and fire extinguishers),
     instructions for reporting an emergency (e.g., calling 911 and building
     address), and the assembly area location where occupants should gather
     after an evacuation. Additionally, a Department of State audit report on
     emergency preparedness recommended that exit routes should also be
     marked with photo luminescent tape at floor and eye level so that
     occupants can make out the exit route even if interior lighting is
     inoperable.




                                    13
                                          Audit of NRC’s Occupant Emergency Program




Examples of photo luminescent tape used in darkened areas denoting exit routes

       Headquarters Emergency Signage Inadequate

Auditors inspected the White Flint complex and found that evacuation
maps do not comply with Federal guidance. First, during a walkthrough of
the White Flint complex, auditors noted that the maps are not posted on 7
of 22 floors in One White Flint or 10 of 15 floors in Two White Flint.
Second, auditors’ inspection of maps in the White Flint complex revealed
that they lack many of the best practice features such as being photo
luminescent, noting primary and secondary evacuation routes, and the
location of emergency equipment, emergency reporting information, and
assembly areas.




     Photo showing a map in                     Photo showing a map in
        One White Flint                           Two White Flint




                               14
                                          Audit of NRC’s Occupant Emergency Program



Third, as illustrated in the photos above, neither map from the White Flint
complex is adequately marked to use in emergencies. Lastly, the maps
are not consistently placed in the same location on each floor in the White
Flint complex. Essentially, in their current form, the diagrams function as
floor maps rather than evacuation tools and are therefore not helpful for
staff use during an emergency.

In addition, exit routes in stairwells are not marked to indicate the direction
of travel to the nearest exit. Further, stairways in the White Flint complex
do not have photo luminescent tape at floor and eye levels to indicate the
direction of travel in an emergency.

       NRC Management Unaware

Auditors met with senior staff to present their observations, and learned
that management was unaware of requirements for exit signs and was
unfamiliar with best-practice guidance for emergency signage. Without
awareness of these standards, agency management has no basis for
judging the adequacy of existing exit and emergency signage in NRC
headquarters buildings and making necessary upgrades.

       Increased Risk to Building Occupants

Auditors did not identify cases in which substandard exit and emergency
signage at the White Flint complex had resulted in injury or loss of life.
Nevertheless, non-compliance with Federal regulations and best-practice
standards increases the risk that NRC employees, visitors, or other
occupants of the White Flint complex will not be capable of safe and timely
evacuation in the event of an emergency. This risk is present for common
emergencies, such as fire, and is arguably higher for incidents such as a
catastrophic terrorist attack. NRC could mitigate this risk and improve
occupant safety at its White Flint complex with relatively minor investment
in emergency signage upgrades to meet Federal requirements, and by
incorporating best-practices that are becoming common among
businesses and other Federal Government agencies.

Recommendations

10. Update maps so they are compliant with industry best practices and
    can function as evacuation tools.

11. Consistently place maps in the same location on every floor of the
    White Flint complex.




                               15
                                          Audit of NRC’s Occupant Emergency Program



12. Post photo luminescent signs and markings at both eye and floor
    levels, along all exit accesses indicating the direction of travel to the
    nearest exit.




                               16
                                                    Audit of NRC’s Occupant Emergency Program



IV.   CONSOLIDATED LIST OF RECOMMENDATIONS

          OIG recommends that the Executive Director for Operations:

          1.   Require annual training for those with responsibilities, such as floor
               and stair monitors, during an emergency.

          2.   Require annual, unannounced, full-scale evacuation drills, including
               mustering and accountability assessments, at all headquarters and
               regional complexes.

          3.   Provide employees with periodic guidance reinforcing key points of
               the agency’s occupant emergency plans and emergency procedures.

          4.   Develop procedures for ensuring that AEDs are routinely maintained
               and checked for operability.

          5.   Post contact information and, where necessary, a telephone in the
               immediate vicinity of all AED devices.

          6.   Publicize the location of each AED (e.g., on the internal Web site or
               in the agency’s occupant emergency plan).

          7.   Include information on the AED program in the agency’s occupant
               emergency plan.

          8.   Develop procedures for consistently issuing PEKs.

          9.   Develop procedures for properly maintaining PEKs.

          10. Update maps so they are compliant with industry best
              practices and can function as evacuation tools.

          11. Consistently place maps in the same location on every floor of the
              White Flint complex.

          12. Post photo luminescent signs and markings at both eye and floor
              levels, along all exit accesses indicating the direction of travel to the
              nearest exit.




                                         17
                                                 Audit of NRC’s Occupant Emergency Program



V.   AGENCY COMMENTS

        At the exit conference on January 26, 2009, agency management stated
        their agreement with the findings and recommendations in this report.
        However, management also wanted to provide written comments to
        provide further insight into the actions the agency is taking to improve the
        Occupant Emergency Program. Specifically, management wished to
        include agency actions that resulted from a lessons learned report
        pertaining to a June 25, 2008, medical event. The agency’s comments
        are provided in Appendix B of this report.




                                      18
                          Audit of NRC’s Occupant Emergency Program




[Page intentionally left blank.]




              19
                                              Audit of NRC’s Occupant Emergency Program


                                                                          APPENDIX A
SCOPE AND METHODOLOGY

       Auditors evaluated the extent to which NRC’s Occupant Emergency
       Program complies with Federal regulations and standards. This audit
       resulted from an FY 2008 audit, Audit of the Agency’s Continuity of
       Operations Plan, which was issued in FY 2008.

       The OIG audit team reviewed relevant Governmentwide criteria, including
       Federal requirements and standards governing the development and
       implementation of Occupant Emergency Plans as noted in the Code of
       Federal Regulations, Chapters 29 and 41, and the Federal Protective
       Services Occupant Emergency Plan guide. Auditors also reviewed
       agency-specific guidance, including Management Directives 10.122,
       Employee Assistance and Wellness Services Program, and 10.130,
       Safety and Health Program Under the Occupational Safety and Health
       Act. Independent reports pertaining to emergency preparedness were
       also consulted, including a Department of State audit report and a
       National Institute of Standards and Technology independent evaluation.

       Auditors randomly surveyed a total of 159 headquarters staff to determine
       their familiarity with their occupant emergency plan. Auditors also
       randomly inspected 139 PEKs located at headquarters to determine
       consistency in PEK contents and how they are maintained. The survey
       results were recorded on an OIG-created checklist, which was developed
       in accordance with Federal and agency requirements, standards, and best
       practices pertaining to emergency preparedness. Additionally, auditors
       inspected several pieces of emergency equipment located in headquarters
       buildings for placement and operability. These devices included AEDs,
       floor maps, and emergency lighting located in stairwells. Auditors
       analyzed the survey results to determine whether NRC is adequately
       maintaining emergency equipment.

       This work was conducted from June 2008 through October 2008 in
       accordance with generally accepted Government auditing standards.
       Those standards require that the audit is planned and performed with the
       objective of obtaining sufficient, appropriate evidence to provide a
       reasonable basis for any findings and conclusions based on the stated
       audit objectives. OIG believes that the evidence obtained provides a
       reasonable basis for the report findings and conclusions based on the
       audit objective. The audit work was conducted by Beth Serepca, Team
       Leader; Terri Cooper, Audit Manager; and Jaclyn Storch, Senior
       Management Analyst.




                                    20
                          Audit of NRC’s Occupant Emergency Program




[Page intentionally left blank.]




              21
                       Audit of NRC’s Occupant Emergency Program


                                                   APPENDIX B
AGENCY COMMENTS




                  22
